U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

May 28, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: United States v. Jose Luis Vaello-Madero
No. 20-303
Dear Mr. Harris:
This letter supplements our request of May 27, 2021, for a further extension of the times
for filing the briefs in this case. The Court granted the petition for a writ of certiorari in this case
on March 1, 2021. On March 22, 2021, the Court extended petitioner’s time to file its opening
brief and joint appendix to and including June 1, 2021 and respondent’s time to file its brief to and
including August 16, 2021.
We respectfully request that petitioner’s time to file its opening brief and joint appendix be
further extended, by six days, to and including June 7, 2021. We also request that respondent’s
time to file his brief be extended to and including August 30, 2021 (the Monday after August 28,
2021, when respondent’s brief would be due if each party is allowed six additional days). Under
this Court’s rules, petitioner’s reply brief would be due 30 days later (or at the time specified in
Rule 25.3).
The extension to petitioner’s time is necessary because finalization of the brief requires
consultation with a number of components of the government and because the attorneys with
principal responsibility for preparation and review of the government’s brief have been heavily
engaged with other pressing matters, including a large number of briefs due at the cutoff for
consideration by the Court before it recesses for the summer.
Counsel for respondent consents to these extensions of time.
Sincerely,

cc:

See Attached Service List

Elizabeth B. Prelogar
Acting Solicitor General

20-0303
USA
JOSE LUIS VAELLO-MADERO

DWYER ARCE
KUTAK ROCK LLP
1650 FARNAM STREET
OMAHA, NE 68102-2186
402-661-8656
DWYER.ARCE@KUTAKROCK.COM
MANUEL DEL VALLE
URB. INDUSTRIAL CALLE FEDERICO COSTA
#170
INTERAMERICAN SCHOOL OF LAW
HATO REY, PR 00918-1303
HERMANN FERRÉ
CURTIS, MALLET-PREVOST, COLT & MOSLE
LLP
101 PARK AVENUE
NEW YORK, NY 10178
HFERRE@CURTIS.COM
JOHN W. FERRÉ-CROSSLEY
P.O. BOX 14773
SAN JUAN, PR 00919

JOSE A. HERNANDEZ MAYORAL
206 TETUAN ST. STE 702
SAN JUAN , PR 00901
787-722-7782
JOSE@HERNANDEZMAYORAL.COM
S. GREGORIO IGARTUA
BOX 3911
AGUADILLA , PR 00605
787-891-9040
BUFETEIGARTUA@YAHOOO.COM
CARLOS LUGO-FIOL
P.O. BOX 260150
SAN JUAN, PR 00926
787-721-2900
CLUGOFIOL@GMAIL.COM
KATHLEEN M. SULLIVAN
QUINN EMANUEL URQUHART & SULLIVAN,
LLP
51 MADISON AVENUE
22ND FLOOR
NEW YORK, NY 10010
212-849-7000
KATHLEENSULLIVAN@QUINNEMANUEL.CO
M

